TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Interim Results of the 2014 Filing Season



                                         March 28, 2014

                             Reference Number: 2014-40-029




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


INTERIM RESULTS OF THE 2014 FILING                    (87.3 percent) of the fraudulent refunds it
SEASON                                                identified. The IRS also identified
                                                      36,801 prisoner tax returns for screening.

Highlights                                            The use of the split refund option to direct
                                                      deposit a refund into multiple bank accounts
                                                      continues to grow. Through March 6, 2014, a
Final Report issued on March 28, 2014                 total of 585,331 individuals chose to split refunds
                                                      totaling more than $2.6 billion into multiple
Highlights of Reference Number: 2014-40-029           accounts. However, TIGTA continues to identify
to the Internal Revenue Service Commissioner          that some taxpayers and return preparers
for the Wage and Investment Division.                 misuse this option to direct a portion of a tax
                                                      refund to a preparer for payment of services.
IMPACT ON TAXPAYERS
                                                      TIGTA also found that some paid tax return
The filing season, defined as the period from
                                                      preparers continue to be noncompliant with
January 1 through mid-April, is critical for the
                                                      Earned Income Tax Credit due diligence
IRS because it is during this time that most
                                                      requirements, but the number has decreased
individuals file their income tax returns and
                                                      substantially when compared to the same period
contact the IRS if they have questions about
                                                      last filing season.
specific laws or filing procedures.
                                                      Finally, the IRS plans to assist 5.6 million
WHY TIGTA DID THE AUDIT                               taxpayers through face-to-face contact at the
The closure of Government operations between          Taxpayer Assistance Centers during Fiscal Year
October 1 and October 16, 2013, reduced the           2014, which is one million fewer taxpayers than
time the IRS had to implement tax law changes         were assisted during Fiscal Year 2013. As of
and bring tax return processing systems online.       March 8, 2014, approximately 46.3 million
The objective of this review was to provide           taxpayers had contacted the IRS by calling one
selected information related to the IRS’s 2014        of the various toll-free Customer Account
Filing Season. TIGTA plans to issue the final         Services lines. The IRS continues to offer more
results of our analysis of the 2014 Filing Season     self-assistance options that taxpayers can
in September 2014.                                    access 24 hours a day, seven days a week,
                                                      including its IRS2Go app; YouTube channels;
WHAT TIGTA FOUND                                      interactive self-help tools on IRS.gov; and
                                                      Twitter, Tumblr, and Facebook accounts.
As a result of the Government closure, the IRS
                                                      However, the IRS did not always ensure that the
delayed the start of the filing season from
                                                      self-help tools were updated with the most
January 21, 2014, to January 31, 2014. As of
                                                      current tax information before the start of the
March 7, 2014, the IRS had received more than
                                                      filing season.
67.1 million tax returns—more than 62.2 million
(92.6 percent) were filed electronically and          WHAT TIGTA RECOMMENDED
nearly five million (7.4 percent) were filed on
paper. The IRS has issued more than                   This report was prepared to provide interim
55.4 million refunds totaling more than               information only. Therefore, no
$164 billion.                                         recommendations were made in the report.

The IRS continues to expand identity theft filters
to identify fraudulent tax returns. As of
February 28, 2014, the IRS reports that it
identified and confirmed 28,076 fraudulent tax
returns involving identity theft. In addition, the
IRS identified 57,316 tax returns with
$385 million claimed in fraudulent refunds and
prevented the issuance of $336 million
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 28, 2014


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Interim Results of the 2014 Filing Season
                                 (Audit # 201440013)

 This report presents selected information related to the Internal Revenue Service’s (IRS)
 2014 Filing Season results.1 As part of our Fiscal Year 2014 Annual Audit Plan, we are
 conducting several ongoing audits that are related to specific issues in this report. Our overall
 objective was to provide selected information related to the IRS’s 2014 Filing Season. This
 review addresses the major management challenge of Implementing the Affordable Care Act and
 Other Tax Law Changes. We will continue to provide IRS management with information on any
 areas of immediate concern throughout our audit process.
 This report was prepared to provide information only. Therefore, we made no recommendations
 in the report. However, we provided IRS management officials with an advance copy of this
 report for review and comment prior to issuance.
 Copies of this report are also being sent to the IRS managers affected by the report information.
 If you have any questions, please contact me or Russell P. Martin, Acting Assistant Inspector
 General for Audit (Returns Processing and Account Services).




 1
     See Appendix V for a glossary of terms.
                                         Interim Results of the 2014 Filing Season




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Processing Tax Returns................................................................................. Page 5
          Detecting and Preventing Tax Refund Fraud................................................ Page 11
          Providing Customer Service ......................................................................... Page 13

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Interactive Self-Help Tools and YouTube Videos............... Page 24
          Appendix V – Glossary of Terms ................................................................. Page 25
                      Interim Results of the 2014 Filing Season




                             Abbreviations

e-file(d), e-filing   Electronically file(d); electronic filing
EITC                  Earned Income Tax Credit
IRS                   Internal Revenue Service
TAC                   Taxpayer Assistance Center
TIGTA                 Treasury Inspector General for Tax Administration
                                    Interim Results of the 2014 Filing Season




                                             Background

The annual tax return filing season1 is a critical period for the Internal Revenue Service (IRS)
because it is when most individuals file their income tax returns and contact the IRS if they have
questions about specific tax laws or filing procedures.
During Calendar Year 2014, the IRS expects to receive
149.8 million individual income tax returns. The IRS                The IRS expects to receive
estimates that it will process approximately 22.9 million             149.8 million individual
paper-filed and 126.9 million electronically filed                  income tax returns during
(e-filed) tax returns. In addition, the IRS expects to                 Calendar Year 2014.
provide customer service assistance via telephone,
website, social media, and face-to-face assistance to
millions of taxpayers. The IRS plans to process individual income tax returns at five Wage and
Investment Division Submission Processing sites2 during the 2014 Filing Season.
One of the challenges the IRS confronts each year in processing tax returns is the
implementation of new tax law changes as well as changes resulting from expired tax provisions.
Before the filing season begins, the IRS must identify the tax law and administrative changes
affecting the upcoming filing season. Once identified, the IRS must revise the various tax forms,
instructions, and publications. It also must reprogram its computer systems to ensure that tax
returns are accurately processed. Errors in the IRS’s tax return processing systems may delay tax
refunds, affect the accuracy of taxpayer accounts, and/or result in incorrect taxpayer notices.

Tax law changes affecting the 2014 Filing Season
        The Patient Protection and Affordable Care Act 3 (ACA) – Enacted March 23, 2010, this
         act contains revenue provisions designed to generate $438 billion to help pay for the
         overall cost of health care reform. The provisions that created additional taxes or
         modified existing tax provisions for taxpayers filing their Tax Year 2013 tax returns
         include:
         o Adding a 3.8 percent Surtax on Net Investment Income for certain taxpayers. The
           threshold amount is based on filing status and is equal to: $250,000 for joint returns



1
  See Appendix V for a glossary of terms.
2
  Fresno, California; Kansas City, Missouri; and Austin, Texas, will process paper and e-filed tax returns. Andover,
Massachusetts, and Philadelphia, Pennsylvania, will process only e-filed tax returns.
3
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                            Page 1
                                     Interim Results of the 2014 Filing Season




               or surviving spouse statuses; $125,000 for individuals using married filing separate
               status; and $200,000 for all other statuses.
           o Increasing the employee share of Medicare tax by an additional 0.9 percent of wages
             or self-employment income. The Additional Medicare Tax increases the employee
             share of Medicare tax by an additional 0.9 percent of covered wages in excess of
             threshold amounts based on the taxpayer’s filing status. The Additional Medicare
             Tax also increases Medicare tax on self-employment income by an additional
             0.9 percent of self-employment income in excess of the threshold amounts, based
             upon filing status. The threshold wage/income amounts by filing status are: $200,000
             for single and head of household; $250,000 for married filing joint or surviving
             spouse statuses; and $125,000 for married filing separate.
           o Increasing the adjusted gross income (AGI) threshold for the medical expense
             deduction. In prior tax years, taxpayers who itemized their deductions could claim a
             deduction for qualified unreimbursed medical expenses that exceeded 7.5 percent of
             their AGI. Starting with Tax Year 2013, the percentage by which expenses must
             exceed the AGI was increased to 10 percent. The only exception to this rule is for
             taxpayers who are age 65 or older before the close of the tax year. Taxpayers in this
             situation may still apply the 7.5 percent rule through Tax Year 2016, at which time it
             will be 10 percent for all taxpayers.
          American Taxpayer Relief Act of 2012 4 – Enacted January 2, 2013, this act increased
           taxes for some taxpayers and generally extended or made permanent many of the tax
           provisions that were set to expire at the end of Calendar Year 2012 including:
           o Adding a 39.6 percent individual income tax rate for high-income earners. Income
             levels subject to the tax bracket differ depending upon filing status and are adjusted
             on a yearly basis for inflation. For Tax Year 2013, the income levels subject to the
             new tax rate by filing status are: $450,000 for married filing joint and surviving
             spouse; $425,000 for head of household; $400,000 for single; and $225,000 for
             married filing separate statuses.
           o Increasing the maximum rate on Capital Gains Tax for high-income earners. The
             maximum rate was increased to 20 percent for certain individuals. The income levels
             subject to the increased rate differ depending upon filing status and are adjusted on a
             yearly basis for inflation. For Tax Year 2013, the income levels subject to the new
             rate are: $450,000 for married filing joint and surviving spouse; $425,000 for head of
             household; $400,000 for single; and $225,000 for married filing separate statuses.
           o Reinstating the limit on personal exemption. Income levels subject to the limitation
             differ based upon filing status and are adjusted on a yearly basis for inflation. For

4
    Pub. L. No. 112-240, 126 Stat. 2313 (2013).
                                                                                               Page 2
                                    Interim Results of the 2014 Filing Season




               Tax Year 2013, the income levels subject to the limitation are: $250,000 for single,
               $300,000 for married filing joint; $150,000 for married filing separate; and $275,000
               for head of household statuses.
           o Reinstating the limit on itemized deductions (Pease limitation). Income levels subject
             to the limitation differ based upon filing status and are adjusted on a yearly basis for
             inflation. For Tax Year 2013, the income levels subject to the limitation are:
             $250,000 for single, $300,000 for married filing joint; $150,000 for married filing
             separate; and $275,000 for head of household.
           o Extending the American Opportunity Tax Credit. Extended the credit for up to
             $2,500 in qualified expenses incurred during the first four years of post-secondary or
             technical program education through Calendar Year 2017. Up to $1,000 of the credit
             is refundable.
           o Extending the Earned Income Tax Credit (EITC) for families with three or more
             qualifying children. Extended the higher EITC available for families with three or
             more qualifying children through Calendar Year 2017. For Tax Year 2013, the
             maximum EITC for a family with three or more qualifying children is $6,044.
           o Increasing the annual gift tax exclusion. For Tax Year 2013, up to $14,000 in gifts
             can be made tax free without affecting an individual’s lifetime estate and gift tax
             exclusion.
           o Extending the standard deduction and the 15 percent tax bracket for married filing
             jointly filers at double that of single filers. The standard deduction for married
             taxpayers filing as joint filers would have reverted back to 167 percent of the standard
             deduction for single taxpayers.
          Federal Recognition of Same-Sex Marriage – On June 26, 2013, the U.S. Supreme
           Court struck down Section 3 of the Defense of Marriage Act5 in the case United States vs.
           Windsor, allowing the IRS to recognize same-sex marriage for Federal tax purposes. The
           ruling was applied retroactively, enabling affected taxpayers to amend prior year tax
           returns for years not closed by the statute of limitations.
The interim 2014 Filing Season results are being presented as of several dates between
February 28 and March 10, 2014, depending on when data were available. Later this year, we
will issue our 2014 Filing Season report. This review was performed at the Wage and
Investment Division Headquarters in Atlanta, Georgia; the Wage and Investment Division
Submission Processing function offices in Cincinnati, Ohio; and the Information Technology
organization Headquarters in Lanham, Maryland. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that

5
    Defense of Marriage Act (DOMA) Pub. L. No. 104-199 110 Stat. 2419 (1996) (codified at 1 U.S.C. § 7 and
    28 U.S.C. § 1738C).
                                                                                                         Page 3
                              Interim Results of the 2014 Filing Season




we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 4
                                  Interim Results of the 2014 Filing Season




                                    Results of Review

Processing Tax Returns
The IRS originally planned to begin processing individual tax returns on January 21, 2014.
However, for the second consecutive year, the IRS delayed the start of the filing season. The
2014 Filing Season was delayed as a result of the closure of Government operations between
October 1 and October 16, 2013. On December 18, 2013, the IRS announced it was delaying the
start of the 2014 Filing Season until January 31, 2014, to allow it adequate time to program and
test the more than 50 IRS systems needed to process tax returns. According to the IRS, the
October 2013 closure put preparations for the filing season nearly three weeks behind its already
tight timetable.
As of March 7, 2014, the IRS received more than 67.1 million tax returns. Taxpayers are e-filing
a higher proportion of tax returns than in the 2013 Filing Season. When comparing filing season
statistics throughout the report, it should be noted that additional delays in processing some tax
returns during the 2013 Filing Season resulted in fewer tax returns received and processed as of
the same period when compared to the 2014 Filing Season. Although the IRS began processing
individual tax returns at approximately the same time last year (January 30, 2013), the IRS was
unable to accept and process some individual income tax returns until March 4, 2013.6 Figure 1
presents comparative filing season statistics as of March 7, 2014.




6
 The tax forms the IRS was unable to process when the 2013 Filing Season began include: Form 5695, Residential
Energy Credits; Form 4562, Depreciation and Amortization (Including Information on Listed Property); Form 3800,
General Business Credit; and Form 8863, Education Credits (American Opportunity and Lifetime Learning
Credits).
                                                                                                       Page 5
                                   Interim Results of the 2014 Filing Season




                       Figure 1: Comparative Filing Season Statistics
                                   (as of March 7, 2014)

                                                                  2013         2014           %
  Cumulative Filing Season Data                                  Actual       Actual        Change
                                                                (3-8-13)     (3-7-14)
  Individual Income Tax Returns

  Total Returns Received (000s)                                   67,143       67,183          0.1%
    Paper Returns Received (000s)                                  5,655        4,970        -12.1%
    E-Filed Returns Received (000s)                               61,488       62,213          1.2%
      Practitioner Prepared (000s)                                35,585       34,816         -2.2%
      Home Computer (000s)                                        25,903       27,397          5.8%
      Free File (000s) (also in the Home Computer total)           1,675        1,880         12.2%
      Fillable Forms (000s) (also in the Home Computer total)       213           143        -33.08%
  Percent of Returns E-Filed                                      91.6%         92.6%          1.1%

  Refunds

   Total Number Issued (000s)                                     53,447       55,434          3.7%
   Total $ (in millions)                                        $154,696     $164,586          6.4%
   Average $                                                      $2,894       $2,969          2.6%
   Total Number of Direct Deposits (000s)                         47,177       47,976          1.7%
   Total Direct Deposit $ (in millions)                         $142,861     $146,305          2.4%
 Source: IRS 2014 Weekly Filing Season reports. Totals and percentages shown are rounded.

The IRS continues to modernize its filing season applications through the
Customer Account Data Engine (CADE) 2 database
The IRS indicated that it continues to modernize its filing season applications in Fiscal
Year 2014 under the CADE 2 program, with full filing season deployment of the CADE 2
database in January 2014. Performance, data quality, and operational processes will be proven
out during Filing Season 2014 by running the initialized CADE 2 database in parallel with the
Individual Master File throughout the filing season, validating the data quality and system
performance.



                                                                                                  Page 6
                                Interim Results of the 2014 Filing Season




Use of the savings bond and split refund options continues to grow, but some
preparers are continuing to misuse the split refund option
Through March 6, 2014, a total of 22,174 individuals requested to convert tax refunds totaling
more than $7.8 million into savings bonds. In addition, 585,331 individuals chose to split tax
refunds totaling more than $2.6 billion between two or three different checking and savings
accounts. Figure 2 shows a comparison of taxpayers’ use of the split refund and savings bond
options for Processing Years 2013 and 2014 as of March 6, 2014.
                   Figure 2: Use of Savings Bonds and Split Refunds
                          for Processing Years 2013 and 2014
                                  (as of March 6, 2014)

             Savings Bonds                                   2013 Actual       2014 Actual

             Total Returns                                       21,859            22,174

             Total Refunds to Bonds $ (in thousands)             $7,900            $7,886

             Split Refunds

             Total Returns                                      527,872           585,331

             Total Refunds Split $ (in thousands)           $2,350,000         $2,660,000

             Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the
             IRS Individual Return Transaction File as of March 6, 2014. Totals are rounded.

Our preliminary analysis of Form 8888, Allocation of Refund (Including Savings Bond
Purchases), found that tax return preparers appear to be continuing to misuse the split refund
option. We identified 346,666 tax returns with a Form 8888 requesting direct deposits totaling
more than $147 million into 25,308 bank accounts as of March 6, 2014. Each of the 25,308 bank
accounts we identified had three or more Form 8888 deposits from different taxpayers into these
accounts during this filing season – 6,726 bank accounts had three deposits, 17,302 bank
accounts had four to 50 deposits, and 1,280 bank accounts had 50 or more deposits. Of those,
six bank accounts had more than 1,000 deposits made to them. We determined that
183,241 (53 percent) of the 346,666 tax returns were prepared by paid tax return preparers.
Form 8888 instructions state that the form is to be used only for the deposit of a tax refund to an
account in the taxpayer’s name. Taxpayers are not to use Form 8888 to direct a portion of a tax
refund to the tax return preparer for payment of services rendered or any other purpose. Despite
this, 6,762 of the 25,308 bank accounts listed on the Forms 8888 were associated with 5,893 paid
tax return preparers.

                                                                                                 Page 7
                                  Interim Results of the 2014 Filing Season




During the 2013 Filing Season, TIGTA reported that it appeared paid preparers were misusing
the split refund option.7 TIGTA provided the IRS with 452 paid preparers associated with
248,027 direct deposits. The IRS reviewed the 452 paid preparers and as of February 13, 2014,
determined that 28 of them already had open criminal investigations or had been referred for
examination. The IRS chose not to pursue the remaining 424 preparers because it determined its
resources could be better used elsewhere.
IRS management also indicated that the IRS is developing a systemic restriction to limit the
number of deposits (three) to a single bank account. After three deposits to a single account,
including situations in which refunds are split, the entire refund amount will be sent by paper
check to the taxpayer at the address of record. The change is expected to reduce the number of
preparers who inappropriately divert the client refund or the preparer fee into an account
controlled by the preparer. It is also expected to reduce identity theft and fraud. The IRS
expects to have the systemic restriction process in place for the 2015 Filing Season.

Ensuring accuracy of tax returns during processing
The delay in the start of the filing season delayed our assessment of the accuracy of the IRS’s
processing of many of the tax law changes affecting Tax Year 2013. We will provide the final
results of our assessment of the following provisions in our 2014 Filing Season report that will
be issued later this year:
       Net Investment Income Tax.
       Additional Medicare Tax.
       Increased AGI threshold for the medical expense deduction.
       New 39.6 percent individual income tax rate for high-income earners.
       Increased capital gains tax for high-income earners.
       Federal recognition of same-sex marriage.

The number of paid tax return preparers who file tax returns claiming the EITC
without the due diligence checklist decreased substantially
The number of paid tax return preparers who file tax returns claiming the EITC with a missing or
incomplete Form 8867, Paid Preparer’s Earned Income Credit Checklist, has declined since
Processing Year 2012. Figure 3 shows the number of tax return preparers we identified during
the 2012 through 2014 Filing Seasons who were not compliant with the Form 8867 requirement.



7
 TIGTA, Ref. No. 2013-40-124, Late Legislation Delayed the Filing of Tax Returns and Issuance of Refunds for the
2013 Filing Season (Sept. 2013).
                                                                                                        Page 8
                                   Interim Results of the 2014 Filing Season




                      Figure 3: Comparison of Preparer Noncompliance
                        With Form 8867 Requirements – 2012 Through
                         2014 Filing Seasons (as of March each year)8

                                           2012                 20139                  2014

               Noncompliant
                                          35,987                80,585                 9,531
               Preparers

               Number of
                                         300,830               612,622                22,387
               Tax Returns

              Source: IRS Wage and Investment Division research and analysis for the 2012 Filing
              Season. TIGTA analysis for the 2013 and 2014 Filing Seasons.

Since enactment of the Form 8867 requirement and the related due diligence penalty, the IRS has
conducted extensive outreach and education for preparers to inform them of the requirement. In
addition, the IRS has worked with tax return preparation software developers to include
requirements in their software applications that will assist tax return preparers in being compliant
with the Form 8867 requirement. However, some tax return preparers continue to file tax returns
claiming millions of dollars in the EITC without the Form 8867, and the IRS has yet to assess the
due diligence penalty. As of March 6, 2014, we identified 9,531 paid tax return preparers filing
22,387 tax returns claiming more than $52 million in the EITC without a completed Form 8867.
This equates to more than $11 million in penalties that could be assessed by the IRS.
In October 2011, Congress increased the penalty for tax return preparers who do not comply with
the EITC due diligence rules from $100 to $500 effective January 1, 2012. According to the
House of Representatives report,10 the penalty was increased to deter noncompliance and for
budgetary offset purposes. Beginning with the 2012 Filing Season, paid tax return preparers who
prepare a tax return claiming the EITC must include Form 8867 with the tax return. Preparers
who do not adhere to this requirement can be assessed a $500 due diligence penalty for each tax
return they submit without the required Form 8867.
       Internal Revenue Code Section 6695(g) states: Any person who is a tax return preparer
        with respect to any return or claim for refund who fails to comply with due diligence
        requirements imposed by the Secretary by regulations with respect to determining
        eligibility for, or the amount of, the credit allowable by section 32 shall pay a penalty of
        $500 for each such failure.

8
  The 2012 Filing Season is as of the week ending March 8, 2012; the 2013 Filing Season is as of the week ending
March 7, 2013; and the 2014 Filing Season is as of the week ending March 6, 2014.
9
  According to the IRS, the increase in the number of noncompliant tax return preparers during the 2013 Filing
Season was due in part to errors in the software used to prepare tax returns.
10
   H.R. Rep. No. 112-239, at [20-21] (2011).
                                                                                                          Page 9
                                   Interim Results of the 2014 Filing Season




        Section 1.6695–2 of Title 26 of the Code of Federal Regulations states: The tax return
         preparer must complete Form 8867, Paid Preparer’s Earned Income Credit Checklist, or
         such other form and such other information as may be prescribed by the Internal
         Revenue Service.Cde12vfrbg
        Form 8867 states: If you checked “No” on line 20, 21, 22, 23, 24, or 25, you have not
         complied with all the due diligence requirements and may have to pay a $500 penalty for
         each failure to comply.
In both our 2012 and 2013 Filing Season reports, we raised concerns to the IRS regarding the
lack of assessment of the due diligence penalty against tax return preparers who do not comply
with the Form 8867 requirement.11 Figure 4 shows potential due diligence penalties the IRS
could have assessed on tax return preparers who did not comply with the Form 8867 requirement
during the 2012 and 2013 Filing Seasons.
               Figure 4: Potential Due Diligence Penalties That Could Have
                 Been Assessed During the 2012 and 2013 Filing Seasons
                                  (as of May each year)12

               Filing                                                                     Potential
              Season              Tax Returns                  EITC Claimed               Penalties

                2012                  533,817                 $1,541,031,460            $266,908,500

                2013                  708,298                 $2,042,003,113            $354,149,000

                Total               1,242,115                 $3,583,034,573            $621,057,500

         Source: TIGTA analysis of tax returns processed during the 2012 and 2013 Filing Seasons.

The IRS informed us that on January 24, 2014, it sent 778 tax return preparers a penalty letter
proposing penalties totaling more than $13 million. Tax return preparers had 30 calendar days to
respond to the letter and request an Appeals hearing. As such, no penalties have been assessed
as of February 25, 2014. We will continue to monitor tax return preparers’ compliance with
Form 8867 requirements as well as the IRS’s efforts to ensure compliance.
As in previous filing seasons, the IRS indicated that it is identifying tax returns filed without a
completed Form 8867 throughout the 2014 Filing Season and will assess due diligence penalties
against noncompliant tax return preparers at the completion of the filing season. The IRS is

11
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not All Tax
Credits Were Processed Correctly During the 2012 Filing Season (Sept. 2012) and TIGTA, Ref. No. 2013-40-124,
Late Legislation Delayed the Filing of Tax Returns and Issuance of Refunds for the 2013 Filing Season (Sept. 2013).
12
   The 2012 Filing Season is as of the week ending March 8, 2012; the 2013 Filing Season is as of the week ending
March 7, 2013; and the 2014 Filing Season is as of the week ending March 6, 2014.
                                                                                                         Page 10
                                   Interim Results of the 2014 Filing Season




notifying paid preparers this year each time a return is submitted without a required Form 8867
attached. According to the IRS, 723 letters have been sent to noncompliant preparers as of
March 6, 2014. In addition, preparers filing electronically receive an electronic alert when the
Form 8867 is not provided.

Detecting and Preventing Tax Refund Fraud
As of March 8, 2014, the IRS reported that it identified 57,316 tax returns with $385 million13
claimed in fraudulent refunds and prevented the issuance of $336 million (87.3 percent) of those
refunds.14 Figure 5 shows the number of fraudulent tax returns identified by the IRS, including
prisoner and identity theft tax returns, for Processing Years 2011 through 2013 as well as the
refund amounts that were claimed and stopped.
                         Figure 5: Fraudulent Returns and Refunds Identified
                         and Stopped in Processing Years 2011 Through 2013

                      Number of                                         Amount of
                      Fraudulent               Number of                Fraudulent              Amount of
     Processing     Refund Returns         Fraudulent Refund              Refunds               Fraudulent
        Year           Identified           Returns Stopped              Identified          Refunds Stopped

       2011            2,176,657                1,756,242            $16,186,395,218          $14,353,795,007

       2012            3,422,505                3,110,788            $20,721,203,369          $19,247,812,922

       2013            2,556,935                2,360,180            $16,456,632,993          $15,690,434,978

 Source: IRS fraudulent tax return statistics for Processing Years 2011 through 2013.

 The decrease in the number of fraudulent tax refunds, including prisoner and identity theft tax
 returns, the IRS detected and stopped in Processing Year 2014 may be attributed to expanded
 IRS processes to prevent fraudulent tax returns from entering the tax processing system (i.e.,
 rejecting attempts to e-file a fraudulent tax return). According to the IRS, expanded use of
 controls to identify fraudulent refund claims before they are accepted into the processing system
 had identified 555,235 fraudulent tax returns as of February 28, 2014.




13
   The IRS indicated that of the $385 million claimed and $336 million stopped in fraudulent refunds, one return had
a refund totaling $96,250,000 that was claimed.
14
   The delay in processing some tax returns has contributed to the decrease in the number of fraudulent tax returns
the IRS has identified as of this date.
                                                                                                          Page 11
                               Interim Results of the 2014 Filing Season




Detection of tax returns involving identity theft
The IRS continues to expand identity theft filters to identify fraudulent tax returns at the time
they are processed. The IRS expanded the number of identity theft filters it uses to identify
potentially fraudulent tax returns and prevent the issuance of fraudulent tax refunds from
80 filters during Processing Year 2013 to 114 filters during Processing Year 2014. The identity
theft filters incorporate criteria based on characteristics of confirmed identity theft tax returns.
These characteristics include amounts claimed for income and withholding, filing requirements,
prisoner status, taxpayer age, and filing history.
Tax returns identified by these filters are held during processing until the IRS can verify the
taxpayer’s identity. The IRS attempts to contact the individual who filed the tax return and, if
this individual’s identity cannot be confirmed, the IRS removes the tax return from processing.
This prevents the issuance of many fraudulent tax refunds. As of February 28, 2014, the IRS
reported that it identified and confirmed 28,076 fraudulent tax returns and prevented the issuance
of nearly $143 million in fraudulent tax refunds as a result of the identity theft filters.
Figure 6 shows the number of identity theft tax returns the IRS identified and confirmed as
fraudulent in Processing Years 2012 through 2014.
                     Figure 6: Identity Theft Tax Returns Confirmed
                        As Fraudulent in Processing Years 2012
                         Through 2014 (as of February 28, 2014)

                           Processing             Number of Identity Theft
                              Year                      Returns

                               2012                          185,657

                               2013                           85,385

                               2014                           28,076

                        Source: IRS fraudulent tax return statistics for Processing
                        Years 2012 through 2014 as of February 28, 2014.

We are currently conducting a review of the IRS’s efforts to detect and prevent identity theft.
We are also conducting a separate review of the IRS’s efforts to assist victims of identity theft.
We will issue these reports later this fiscal year.

Screening of prisoner tax returns
As of March 8, 2014, the IRS reports that it identified 36,801 potentially fraudulent tax returns
filed by prisoners for screening. Figure 7 shows the number of prisoner tax returns identified for
screening in Processing Years 2012 through 2014.

                                                                                             Page 12
                               Interim Results of the 2014 Filing Season




                         Figure 7: Prisoner Tax Returns Identified
                          for Screening in Processing Years 2012
                            Through 2014 (as of March 8, 2014)

                                                     Number of Prisoner
                           Processing               Tax Returns Identified
                              Year                      for Screening

                               2012                          71,594

                               2013                          43,684

                               2014                          36,801

                        Source: IRS fraudulent tax return statistics for Processing
                        Years 2012 through 2014 as of March 8, 2014.

We are currently conducting a separate review of the IRS’s efforts to improve the detection and
prevention of prisoner tax fraud and plan to issue a report later this fiscal year.

Providing Customer Service
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers (TAC) and/or Volunteer Program sites, and self-assistance through
IRS.gov and social media channels.

Face-to-face assistance at the TACs
Each year, many taxpayers seek assistance from one of the IRS’s 389 walk-in offices, called
TACs. However, the IRS estimates that the number of taxpayers it will assist at its TACs will
decrease this fiscal year. The IRS assisted more than 6.5 million taxpayers in Fiscal Year 2013
and plans to assist 5.6 million taxpayers in Fiscal Year 2014, which is 14 percent fewer than in
Fiscal Year 2013. The IRS indicated that budget cuts and its strategy of not offering services at
TACs that can be obtained through other service channels, such as the IRS’s website, result in
the reduction of the number of taxpayers the IRS plans to assist at the TACs.
Furthermore, in Fiscal Year 2014, the IRS eliminated or drastically reduced services at TACs.
The TACs are no longer preparing tax returns. Taxpayers seeking this assistance will be referred
to Volunteer Income Tax Assistance sites or other free preparation options for assistance. TAC
assistors will only answer basic tax law questions during the filing season and will not answer
any tax law questions after April 15, 2014. After April 15, 2014, the IRS will direct all tax law
inquiries to alternative services such as IRS.gov, Tele-Tax, commercial software packages, or a
tax professional. In addition, TACs will no longer answer taxpayers’ tax refund inquiries unless

                                                                                            Page 13
                                   Interim Results of the 2014 Filing Season




the taxpayer has waited more than 21 days for the refund. Taxpayers with refund inquiries will
be referred to the “Where’s My Refund?” application on IRS.gov. Finally, the TACs are
transitioning to no longer provide transcripts upon request without extenuating circumstances.
For the 2014 Filing Season, TACs will still provide transcripts but are encouraging taxpayers to
obtain them through other sources.
Figure 8 shows the number of contacts by product line at the TACs for Fiscal Years 2011
through 2014.
          Figure 8: Contacts for Fiscal Years 2011 Through 2014 (in millions)

                                                                     Fiscal Year
          Contacts/Product Lines
                                                                                             2014
                                                 2011            2012          2013       Projections

          Tax Accounts Contacts                    3.7             4.3          4.4            3.6

          Forms Contacts                           0.6             0.6          0.5            0.4

          Other Contacts15                         1.5             1.7          1.5            1.5

          Tax Law Contacts                         0.3             0.2          0.2            0.1

          Tax Returns Prepared16                   0.3            N/A          N/A            N/A

          Totals                                   6.4             6.8          6.5            5.6

        Source: IRS management information reports. Totals shown are rounded.

We are currently conducting a separate review of the effectiveness and efficiency of the TAC
Program and plan to issue a report later this fiscal year.

Toll-free telephone assistance
As of March 8, 2014, approximately 46.3 million taxpayers contacted the IRS by calling the
various customer service toll-free telephone assistance lines seeking help to understand the tax
law and meet their tax obligations.17 IRS assistors have answered 6 million calls and have


15
   Other Contacts includes but is not limited to: Form 2063, U.S. Departing Alien Income Tax Statement,
date-stamping tax returns brought in by taxpayers, screening taxpayers for eligibility of service, scheduling
appointments, and helping taxpayers with general information such as addresses and directions to other IRS offices
or other Federal Government agencies.
16
   In Fiscal Years 2012, 2013, and 2014, Tax Returns Prepared is included in Other Contacts.
17
   The IRS refers to the suite of 29 telephone lines to which taxpayers can make calls as “Customer Account
Services Toll-Free.”
                                                                                                          Page 14
                                    Interim Results of the 2014 Filing Season




achieved a 74.7 percent Level of Service with an 11.7 minute Average Speed of Answer. The
Level of Service for Filing Season 2013 was 67.9 percent. The IRS forecasted a 70.2 percent
Level of Service for the 2014 Filing Season. Figure 9 shows a comparison of IRS toll-free
telephone statistics through March 8, 2014, for Fiscal Years 2011 through 2014.
                    Figure 9: Toll-Free Filing Season Telephone Statistics
                             for Fiscal Years 2011 Through 2014
                                      As of March 8, 2014

                                                                Fiscal Year
        Statistic
                                       2011              2012              2013               2014

        Assistor Calls
                                    9,560,407         8,252,582         8,183,476          6,038,861
        Answered

        Level of Service              72.6%             66.8%             67.9%              74.7%

        Average Speed of
                                        618               956              845                 704
        Answer (Seconds)

         Source: IRS management information reports as of March 8, 2014.

Although the IRS is reporting an increase in the Level of Service, IRS numbers continue to show
a decline in the total number of taxpayers who contact the IRS who are actually assisted. As of
March 8, 2014, the number of taxpayers actually assisted has dropped from 56.1 percent to
51.6 percent as of the same time last year.18 We previously reported that the Level of Service
measure does not accurately reflect total call demand (i.e., total number of taxpayers attempting
to call the IRS).19 The Level of Service only measures the percentage of calls in the queue
waiting to be answered by an assistor that are actually answered. The Level of Service does not
measure the success of taxpayers attempting to call the IRS to use the IRS’s automated services.
The IRS can manage the Level of Service by increasing or decreasing the number of calls it
allows in to the assistor queue.
Tax preparation assistance at Volunteer Program sites
The Volunteer Program continues to play an important role in the IRS’s efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
persons with disabilities, rural, Native Americans, and limited-English-proficient taxpayers. As


18
   Using automation or live assistance, the IRS answered 31.6 million of the 56.3 million calls received as of
March 8, 2013 (56.1 percent) and 23.9 million of the 46.3 million calls received as of March 8, 2014 (51.6 percent).
19
   TIGTA, Ref. No. 2009-40-127, Higher Than Planned Call Demand Reduced Toll-Free Telephone Access for the
2009 Filing Season (Sept. 2009).
                                                                                                           Page 15
                                       Interim Results of the 2014 Filing Season




of March 9, 2014, more than 1.8 million tax returns have been prepared at the 12,319 Volunteer
Program sites nationwide. Figure 10 shows the number of tax returns prepared by volunteers
from Fiscal Years 2011 through 2013.
                                Figure 10: Volunteer Program Statistics
                                  for Fiscal Years 2011 Through 2013

                                                                                        Percentage Change
                                  Fiscal Year        Fiscal Year       Fiscal Year      (Fiscal Year 2012 to
                                     2011               2012              2013           Fiscal Year 2013)

           Tax Returns           3,188,524           3,264,997          3,406,182                 4.3%

           Volunteers               88,527              98,978             91,820                 -7.2%

           Sites                    12,486             13,14320            13,081                 -0.5%

          Source: IRS management information system containing Fiscal Years 2011 through 2013 information.
          Percentages are rounded.

Self-assistance through IRS.gov and social media channels
The IRS continues to offer more self-assistance options that taxpayers can access 24 hours a day,
seven days a week. For example, the IRS offers IRS2Go, which is a mobile application that lets
                              taxpayers interact with the IRS using their mobile device to access
                              information and a limited number of IRS tools. In addition, the IRS
                              uses various forms of social media including YouTube, Twitter,
                              Tumblr, and Facebook. As of March 7, 2014, the IRS reports
approximately 2.3 million new downloads and updates of its IRS2Go mobile application, for a
total of 5.5 million since its inception. As of March 10, 2014, there have been more than
583,000 new views of IRS YouTube videos and a 7 percent increase in Twitter followers, for a
total of 81,605 total followers.
Foremost is the IRS’s public Internet site, IRS.gov. The IRS reports 181.2 million visits to
IRS.gov this filing season. It reports a 1.4 percent increase in the number of taxpayers obtaining
their refund information online via the “Where’s My Refund?” option found on IRS.gov.
Figure 11 shows the year-to-date comparisons of various IRS.gov activity levels for the
2011 through 2014 Filing Seasons.




20
     The Tax Returns and Sites totals do not include tax returns prepared using Facilitated Self-Assistance kiosks.
                                                                                                               Page 16
                                  Interim Results of the 2014 Filing Season




                  Figure 11: Year-to-Date Comparisons of the IRS.gov
                Activity Levels for the 2011 Through 2014 Filing Seasons21

                                    2011 Actual         2012 Actual      2013 Actual       2014 Actual

       IRS.gov Visits               119,793,481        167,038,289       197,651,780       181,196,235

       “Where’s My Refund?”          43,309,204          86,861,305      123,090,163       124,799,672

      Source: IRS 2011 through 2014 Weekly Filing Season reports.

Some self-assistance tools were not timely updated with the most current tax information
Although the IRS is increasing its reliance on self-assistance options to help taxpayers, not all of
the self-assistance tools were updated with the most current tax information before the filing
season began. For example, in January 2014, the IRS promoted (“tweeted” via Twitter) its
self-service interactive tools available on IRS.gov. A review of these tools found that 25 of the
28 tools promoted by the IRS were not updated to reflect Tax Year 2013 information.22
The majority of the tools that were not updated are available through the Interactive Tax
Assistant. The Interactive Tax Assistant tool is a tax law resource that takes users through a
series of questions and provides them with responses to tax law questions. The IRS did provide
users of these tools with a disclaimer on the homepage of the Interactive Tax Assistant which
read:
        “The tool is currently being updated for tax year 2013. Be aware that using the 2012 tax
        year will generally provide a correct answer, however changes to income and adjusted
        gross incomes include thresholds for 2013 may result in an incorrect answer if those
        thresholds are applicable.”
We informed the IRS of our concerns with the accuracy of the self-assistance tools on
January 30, 2014. On February 13, 2014, IRS management responded to our concerns,
explaining that the IRS’s education and communication process starts in advance of the opening
of tax return processing and involves raising visibility or awareness about the availability of a
general service or product even before the service is available. The “go-live” dates for tools vary
but are optimally current before or when the filing season opens. According to the IRS, highly
specialized training is required to properly develop and maintain the self-assistance tools. The
sequester and the Federal Government shutdown along with newly enacted travel restrictions for
specialized training negatively affected the IRS’s implementation plan for delivery of these


21
   The 2011 Filing Season is through the week ending March 5, 2011; the 2012 Filing Season is through the week
ending March 3, 2012; the 2013 Filing Season is through the week ending March 8, 2013; and the 2014 Filing
Season is through the week ending March 8, 2014.
22
   See Appendix IV for a complete list of the interactive tools.
                                                                                                        Page 17
                                  Interim Results of the 2014 Filing Season




topics. IRS management also informed us that the IRS is in the process of updating the
self-assistance tools.
YouTube videos were not updated with the most current tax information
We reviewed the YouTube videos available on the IRS YouTube channels for 18 tax subjects23
that directly relate to the 2014 Filing Season. When exceptions were noted, we also reviewed the
American Sign Language version of the videos. We found that the following videos were
outdated and therefore contained inaccurate information:
        Medical and Dental Expenses – the video did not include the new 10 percent of AGI
         restriction for taxpayers under age 65.
        Gift Taxes – the video stated that the gift exemption is $13,000, but for Tax Year 2013,
         the correct amount is $14,000.
        Do I have to File a Tax Return? – the video states that single taxpayers who earned a
         little more than $9,000 need to file, but that figure is now $10,000.
We notified the IRS of our concerns with the YouTube videos on February 6, 2014. On
February 12, 2014, IRS management informed us that they are in the process of updating the
YouTube videos we identified, and the outdated versions of the videos were removed from
IRS.gov. The IRS released a new and accurate Medical and Dental Expenses video on
February 25, 2014. The remaining videos have not yet been updated.

Accounts Management function over-age correspondence inventory continues
to grow
The over-age correspondence inventory rose from approximately 181,000 at the end of
Processing Year 2010 to almost 1.19 million at the end of Processing Year 2013, representing an
increase of 556 percent.24 Correspondence inventory includes but is not limited to amended tax
returns, responses to taxpayer notices, identity theft cases, and applications for Individual
Taxpayer Identification Numbers and is considered over-aged when it has been in inventory for
more than 45 calendar days. Figure 12 provides a comparison of the correspondence inventory
for Processing Years 2010 through 2013.




23
  See Appendix IV for a complete list of the videos.
24
  Numbers have been rounded. The percentage of change is based on the actual inventory volumes as of the end of
Processing Years 2010 and 2013. See Figure 12 for actual inventory volumes.
                                                                                                      Page 18
                               Interim Results of the 2014 Filing Season




                      Figure 12: Year-to-Date Comparisons as of
                  the End of the 2010 Through 2013 Processing Years

                                    2010               2011              2012        2013

     Total Inventory              1,292,453          2,013,556          2,401,845   2,580,527

     Over-Age Volume                180,938            605,739            592,536   1,187,255

     Percent Over-Aged                14.0%              30.1%             24.7%       46.0%

    Source: IRS Accounts Management Inventory Report – Inventory Age Reports.

IRS management indicated that the continued increase in the over-age correspondence inventory
is the result of reduced Accounts Management function resources. According to IRS
management, allocating these limited resources requires difficult decisions to handle the
numerous programs throughout the Accounts Management function. IRS management stated
that their focus has been to maximize taxpayer assistance on the toll-free telephone lines during
filing season while concentrating any remaining resources toward various priority programs such
as identity theft and aged work. The IRS anticipates additional resource availability for the
remaining inventory types as a result of continued reduction in identity theft inventories and
additional benefits derived from the IRS’s demand management strategies.
We are planning to conduct a separate review of the IRS’s processing of Accounts Management
function correspondence during Fiscal Year 2015.




                                                                                            Page 19
                                     Interim Results of the 2014 Filing Season




                                                                                            Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide selected information related to the IRS’s
2014 Filing Season.1 TIGTA plans to issue the final results of our analysis of the 2014 Filing
Season in September 2014. To achieve this objective, we:
I.         Identified volumes of paper and e-filed tax returns received through March 7, 2014, from
           the IRS Weekly Filing Season reports that provide a year-to-date comparison of
           scheduled return receipts to actual return receipts. The reports also provide a comparison
           to Fiscal Year 2013 receipts for the same period.
II.        Monitored online news outlets and forums to identify any preparation, filing, or
           processing issues that taxpayers are experiencing.
III.       Determined if the IRS has correctly implemented selected tax legislation that affects the
           processing of individual taxpayer returns during the 2014 Filing Season.
IV.        Followed up on findings previously reported by TIGTA to ensure that the IRS has taken
           the agreed upon action to resolve the issues.
V.         Identified online self-help applications provided by the IRS and ensured that the
           information and results provided are accurate.
VI.        Determined if the IRS monitoring systems indicate that individual tax returns are being
           processed timely and accurately.
VII.       Compiled statistical information that is of interest to external stakeholders.
           A. Quantified fraudulent tax returns and tax returns filed by prisoners.
           B. Determined whether individuals are using the savings bond option for direct purchase
              of savings bonds from their refunds.
           C. Determined whether individuals have significantly increased their use of the split
              refund option for depositing their refunds.
           D. Identified results for the TAC Program.
           E. Identified results for the Toll-Free Telephone Assistance Program.
           F. Identified results for the Volunteer Income Tax Assistance Program.


1
    See Appendix V for a glossary of terms.
                                                                                                Page 20
                              Interim Results of the 2014 Filing Season




       G. Identified results for IRS self-assistance through IRS.gov.
       H. Identified results for the Accounts Management function correspondence inventory.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the processes for planning,
organizing, directing, and controlling program operations for the 2014 Filing Season. We also
evaluated the controls that are incorporated directly into computer applications to help ensure the
validity, completeness, accuracy, and confidentiality of transactions and data during application
processing of tax returns for the 2014 Filing Season.




                                                                                           Page 21
                             Interim Results of the 2014 Filing Season




                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Deann L. Baiza, Director
Bill R. Russell, Audit Manager
Lance J. Welling, Lead Auditor
Doug C. Barneck, Senior Auditor
W. George Burleigh, Senior Auditor
John L. Hawkins, Senior Auditor
Laura P. Haws, Senior Auditor
Mark V. Willoughby, Senior Auditor
Michelle S. Cove, Assistant Director, Information Technology Specialist
James M. Allen, Information Technology Specialist
Joseph C. Butler, Information Technology Specialist
Donald J. Meyer, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Steven E. Vandigriff, Information Technology Specialist
Jeffrey E. Williams, Information Technology Specialist




                                                                                          Page 22
                            Interim Results of the 2014 Filing Season




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, E-File Services, Wage and Investment Division SE:W:CAS:SP:eFS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 23
                               Interim Results of the 2014 Filing Season




                                                                                   Appendix IV

     Interactive Self-Help Tools and YouTube Videos

              Interactive Self-Help Tools                       IRS YouTube Videos Reviewed
    Do I Need to File a Tax Return?                               Medical and Dental Expenses
    Who Can I Claim as a Dependent?                               Do I Have To File a Tax Return?
    How Much Can I Deduct for Each Exemption I Claim?             Gift Tax
    What is My Filing Status?                                     First-Time Homebuyer Credit
    What is the simplest form to use to file my taxes?             Account Look-Up Tool
    How Do I File a Deceased Person's Tax Return?                 IRS Withholding Calculator
    Can I Claim My Personal and/or Spousal Exemption?             Selling Your Home
    How Much is My Standard Deduction?                            Standard Versus Itemized
    Can I Deduct My Charitable Contributions?                      Deductions
    Can I Deduct My Mortgage Related Expenses?                    Split Refunds-Savings Bonds
    Can I Claim My Expenses as Miscellaneous Itemized             Year-End Tax Tips-2013
     Deductions on Schedule A (Form 1040)?                         Charitable Contributions
    Do I Need To Claim My Gambling Winnings and Can I             Earned Income Tax Credit
     Deduct My Gambling Losses?                                    Education Tax Credits
    Can I Deduct My Medical and Dental Expenses?                  Education Tax Credits and
    Can I Deduct My Moving Expenses?                               Deductions
    Can I Claim a Deduction For Student Loan Interest?            Estimated Tax Payments
    Am I Eligible for the Child Tax Credit?                       Home Office Deduction
    Am I Eligible to Claim an Education Credit?                   Additional Medicare Tax
    Do I Qualify for the Credit for the Elderly or Disabled?      IRS Free File
    Am I Eligible for the Making Work Pay Credit or               Is Social Security Taxable?
     Government Retiree Credit?
    Is My Pension or Annuity Payment Taxable?
    Are My Social Security or Railroad Retirement Tier I
     Benefits Taxable?
    Do I Have Cancellation of Debt Income on My Personal
     Residence?
    Is My Residential Rental Income Taxable and/or Are
     My Expenses Deductible?
    Earned Income Tax Credit (EITC) Assistant
    Sales Tax Deduction Calculator
    Alternative Minimum Tax Assistant
    First-Time Homebuyer Credit Account Look-up
    Where’s My Refund?
Source: www.YouTube.com and www.IRS.gov.

                                                                                            Page 24
                     Interim Results of the 2014 Filing Season




                                                                              Appendix V

                        Glossary of Terms

Adjusted Gross      Gross income minus adjustments to income.
Income
Average Speed of    The average number of seconds taxpayers waited in the assistor queue
Answer              (on hold) before receiving services.

Calendar Year       The 12-consecutive-month period ending on December 31.
Earned Income Tax   A refundable Federal tax credit for low-income working individuals and
Credit              families.

Facilitated         An initiative to provide self-help assistance kiosks at the TACs. The
Self-Assistance     kiosks can be used by taxpayers to access IRS.gov to file their tax
                    returns, print tax forms and publications, or conduct tax research.
Filing Season       The period from January 1 through mid-April when most individual
                    income tax returns are filed.
First-Time          A refundable Federal tax credit for individuals who purchase a home.
Homebuyer Credit
Fiscal Year         A 12-consecutive-month period ending on the last day of any month.
                    The Federal Government’s fiscal year begins on October 1 and ends on
                    September 30.
Free File           A free Federal tax preparation and e-filing program for eligible taxpayers
                    developed through a partnership between the IRS and the Free File
                    Alliance, LLC. The Alliance is a group of private sector tax software
                    companies.
Individual Master   The IRS database that maintains transactions or records of individual tax
File                accounts.

Individual Return   A database the IRS maintains that contains information on the individual
Transaction File    returns it receives.

Level of Service    The primary measure of service to taxpayers. It is the relative success
                    rate of taxpayers who call for live assistance on the IRS toll-free
                    telephone lines.
Processing Year     The calendar year in which the return or document is processed by the
                    IRS.

                                                                                       Page 25
                       Interim Results of the 2014 Filing Season




Sequester             About $1 trillion in automatic, arbitrary across the board budget cuts that
                      started to take effect in 2013.
Submission            The data processing arm of the IRS. The sites process paper and
Processing Site       electronic submissions, correct errors, and forward data to the
                      Computing Centers for analysis and posting to taxpayer accounts.
Tax Year              The 12-month period for which tax is calculated. For most individual
                      taxpayers, the tax year is synonymous with the calendar year.
Taxpayer Assistance   Walk-in sites where taxpayers can obtain answers to both account and
Centers               tax law questions as well as receive assistance in preparing their tax
                      returns.
Volunteer Program     Includes the Volunteer Income Tax Assistance Program, including the
                      Volunteer Income Tax Assistance Grant Program and the Tax
                      Counseling for the Elderly Program. The Volunteer Program provides
                      free tax assistance to persons with low to moderate income (generally
                      $52,000 and below), the elderly, persons with disabilities, rural, Native
                      Americans, and persons with limited-English proficiency.




                                                                                          Page 26
